  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




  SOUTH CAROLINA CLAIMED SOME
 UNALLOWABLE ROOM-AND-BOARD
COSTS UNDER THE INTELLECTUAL AND
   RELATED DISABILITIES WAIVER


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                       September 2012
                                                        A-04-11-04012
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements. In South Carolina, the Department of Health & Human
Services (State agency) administers the Medicaid program.

Intellectual and Related Disabilities Waiver Services

Under a Title XIX section 1915(c) waiver approved by CMS, the State agency operates a waiver
program that provides long-term care and support for individuals with intellectual or related
disabilities. Section 1915(c) allows for payment of the cost of home or community-based
services that are provided under a written plan of care to individuals in need of the services.
Costs that are not related to the provision of this care, as well as room-and-board costs, are not
allowable under such a waiver.

The State agency provides administrative oversight and monitoring of the waiver program.
However, it contracts with the South Carolina Department of Disabilities and Special Needs (the
Department) to provide waiver services. The Department provides these waiver services through
contractual arrangements with a network of 39 local Disabilities and Special Needs (DSN)
Boards divided into 4 regions.

Reimbursement Methodology

Throughout the year, the Department makes prospective “band” payments to the local DSN
boards. The band payments are advance payments for waiver services and are based on the
number of clients within each band at a particular local DSN board. There is no provision for
settlement of the band payments if a local DSN board incurs costs that exceed its band payments.
However, if a local DSN board spends less than 98 percent of the band payments received in a
contract period, it must refund to the Department the excess payments received. The local DSN
boards submit to the Department monthly service reports to reflect actual services provided to
clients during the month.

Based on these monthly service reports submitted by the local DSN boards, the Department
submits claims to the State agency for payment. The payment of these claims, subject to
settlement based on the Department’s annual cost reports, is the basis for expenditure of Federal
funds for waiver program services. The State agency reports waiver program expenditures,
including any settlement payments, on the Quarterly Medicaid Statement of Expenditures for the

                                                 i
Medical Assistance Program (CMS-64 report), which summarizes actual Medicaid expenses for
each quarter. CMS uses the CMS-64 report to reimburse States for the Federal share of
Medicaid expenditures.

CMS reimburses to the State agency the Federal share of the State agency’s claimed costs, based
on the Federal medical assistance percentage (FMAP). From July 1, 2006, through June 30,
2009, the State agency claimed costs for the waiver program totaling $620,398,730. South
Carolina’s FMAP for the period varied from approximately 69 to 79 percent. Under the contract
between the Department and the State agency, the Department was responsible for all
unallowable costs.

Cost Reporting Process

Each of the 39 local DSN boards submits to the Department annual cost reports for its various
service areas. These cost reports include both direct costs for the various service areas and the
administrative and general costs that each local DSN board allocates. The local DSN boards
prepare separate cost reports for each of the waiver program residential service programs.

Annually, the Department submits to the State agency a consolidated waiver program cost report
that lists the waiver program costs of all of the local DSN boards combined. This cost report
also includes the Department’s central office and regional office administrative and general costs
that are allocated to the waiver program. The State agency compares the costs listed on the
consolidated waiver program cost report to previous payments made to the Department for
waiver program services for the fiscal year and settles with the Department for the difference.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid reimbursement for
unallowable room-and-board costs under the waiver program that the Department operated.

SUMMARY OF FINDINGS

The State agency claimed Medicaid reimbursement of $6,730,749 ($4,832,975 Federal share) for
unallowable room-and-board costs under the waiver program that the Department operated. The
unallowable costs included:

   •   $5,176,347 ($3,726,112 Federal share) of administrative and general costs related to
       room and board and

   •   $1,554,402 ($1,106,863 Federal share) of direct room-and-board costs.

The State agency claimed unallowable room-and-board costs because neither the State agency
nor the Department had adequate controls to (1) ensure that the Department followed applicable
Federal law and guidance or its own guidance or (2) detect errors or misstatements on the local
DSN boards’ cost reports. Additionally, the Department did not prescribe a uniform format for
the local DSN boards to follow when preparing the cost reports. Rather, each local board

                                                 ii
prepared its cost reports in its own format, making it difficult to identify when unallowable costs
were claimed.
RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal government $4,832,975 representing the Federal share of the room-
       and-board costs that the Department improperly claimed on its waiver cost reports,

   •   instruct the Department to follow Federal law and its own guidance and remove room-
       and-board related administrative and general costs from future waiver program cost
       reports,

   •   instruct the Department to develop a uniform cost reporting process and require each
       local board to follow this process,

   •   instruct the Department to strengthen its cost report review procedures to ensure that it
       will detect errors or misstatements on the local DSN boards’ cost reports, and

   •   strengthen its own procedures for reviewing the waiver cost reports submitted by the
       Department.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with all of our
recommendations and said that it would work with CMS to negotiate repayment of $4,832,975,
representing the Federal share of improperly claimed room-and-board costs. The State agency’s
comments are included in their entirety as Appendix C.




                                                iii
                                                  TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicaid Program ....................................................................................................1
              Intellectual and Related Disabilities Waiver Services .............................................1
              Reimbursement Methodology..................................................................................1
              Cost Reporting Process ............................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope ........................................................................................................................2
               Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................4

          FEDERAL LAW AND GUIDANCE ..................................................................................4
               Social Security Act ..................................................................................................4
               Federal Regulations .................................................................................................5
               State Medicaid Manual ............................................................................................5

          ROOM-AND-BOARD ADMINISTRATIVE AND GENERAL COSTS ..........................5
              Local Disabilities and Special Needs Boards ..........................................................5
              The Department Central Office ...............................................................................6

          DIRECT ROOM-AND-BOARD COSTS ...........................................................................6

          INADEQUATE CONTROLS .............................................................................................6

          RECOMMENDATIONS .....................................................................................................7

          STATE AGENCY COMMENTS ........................................................................................7

APPENDIXES

          A: INDIRECT ROOM-AND-BOARD EXPENSES CLAIMED
             FOR REIMBURSEMENT FOR FISCAL YEARS 2007, 2008, AND 2009

          B: DIRECT ROOM-AND-BOARD EXPENSES CLAIMED
             FOR REIMBURSEMENT FOR FISCAL YEARS 2007, 2008, AND 2009

          C: STATE AGENCY COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements. In South Carolina, the Department of Health & Human
Services (State agency) administers the Medicaid program.

Intellectual and Related Disabilities Waiver Services

Under a Title XIX section 1915(c) waiver 1 approved by CMS, the State agency operates a
waiver program that provides long-term care and support for individuals with intellectual or
related disabilities. 2 Section 1915(c) allows for payment of the cost of home or community-
based services that are provided under a written plan of care to individuals in need of the
services. Costs that are not related to the provision of this care, as well as room-and-board costs,
are not allowable under such a waiver.

The State agency provides administrative oversight and monitoring of the waiver program.
However, it contracts with the South Carolina Department of Disabilities and Special Needs (the
Department) to provide waiver services. The Department provides these waiver services through
contractual arrangements with a network of 39 local Disabilities and Special Needs Boards (local
DSN boards). These local DSN boards are divided into four regions: Piedmont, Pee Dee,
Coastal, and Midlands.

Reimbursement Methodology

Throughout the year, the Department makes prospective “band” 3 payments to the local DSN
boards. The band payments are advance payments for waiver services and are based on the
number of clients within each band at a particular local DSN board. There is no provision for
settlement if a local DSN board incurs costs that exceed its band payments. However, if a local
DSN board spends less than 98 percent of the band payments received in a contract period, it

1
  Under section 1915(c) waivers, States may allow for care to be provided in a community-based setting for certain
individuals.
2
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021, & 29028 (May 16, 2012).
3
  The band system is a budgeting system that assigns eight different funding levels, known as bands, to service users
based on their needs. The amount of funding assigned to each band depends on the level of residential care and
intensity of services that the clients in each band are expected to need.

                                                          1
must refund to the Department the excess payments received. The local DSN boards submit to
the Department monthly service reports to reflect actual services provided to clients during the
month.

Based on these monthly service reports that the local DSN boards submit, the Department
submits claims to the State agency for payment. The payment of these claims, subject to
settlement based on the Department’s annual cost reports, is the basis for expenditure of Federal
funds for waiver program services. The State agency submits quarterly reports covering waiver
program expenditures, including any settlement payments, on the Quarterly Medicaid Statement
of Expenditures for the Medical Assistance Program (CMS-64 report), which summarizes actual
Medicaid expenses for each quarter. CMS uses the CMS-64 report to reimburse States for the
Federal share of Medicaid expenditures.

CMS reimburses to the State agency the Federal share of the State agency’s claimed costs, based
on the Federal medical assistance percentage (FMAP). South Carolina’s FMAP for the period
varied from approximately 69 to 79 percent. Under the contract between the Department and the
State agency, the Department was responsible for all unallowable costs.

Cost Reporting Process

Each of the 39 local DSN boards submits annual cost reports to the Department for its various
service areas, including the waiver program’s residential service programs such as Supervised
Living Program, Community Training Homes, and Community Residential Care Facilities.
These cost reports include both direct costs for the various service areas and the administrative
and general costs that each local DSN board allocates. The local DSN boards prepare separate
cost reports for each of the waiver program’s residential service programs.

Annually, the Department submits to the State agency a consolidated waiver program cost report
that lists the waiver program costs of all of the local DSN boards combined. The cost report also
includes the Department’s central office and regional office administrative and general costs that
are allocated to the waiver program. The State agency compares the costs listed on the
consolidated waiver program cost report to previous payments made to the Department for
waiver program services for the fiscal year and settles with the Department for the difference.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Medicaid reimbursement for
unallowable room-and-board costs under the waiver program that the Department operated.

Scope

Our audit covered the period July 1, 2006, through June 30, 2009, which represented State fiscal
years (SFY) 2007 through 2009. For this period, the State agency claimed costs for the waiver
program totaling $620,398,730.

                                                 2
In planning and performing our audit, we limited our review of the State agency’s and the
Department’s internal controls to those controls related to ensuring that room-and-board costs are
not claimed for Federal reimbursement.

We conducted fieldwork at the State agency’s and the Department’s offices in Columbia, South
Carolina, from February through October 2011.

Methodology

To accomplish our objectives, we:

   •   met with Department officials to discuss the Department’s central office and regional
       office administrative costs, as well as certain allocated costs on the local DSN boards’
       cost reports;

   •   met with State agency officials to discuss the settlement status of the waiver program cost
       reports for the audit period;

   •   reviewed section 1915(c) of the Act;

   •   reviewed cost reports and overhead allocation schedules for the 39 local DSN boards;

   •   identified direct room-and-board costs that were claimed on the local DSN boards’ cost
       reports and ultimately claimed by the Department on its consolidated waiver program
       cost reports;

   •   determined the ratio of unallowable direct room-and-board costs to total direct costs
       (room-and-board ratio) for each local DSN board’s residential service programs;

   •   determined the room-and-board portion of administrative and general costs for each local
       DSN board by applying the room-and-board ratio for each residential service program to
       the local DSN board’s administrative and general costs that were allocated to the
       residential service program;

   •   reviewed the Department’s allocation of its central office costs to the four regions;

   •   identified the administrative and general portions of the Department’s central office
       overhead costs that it allocated to the waiver program for each region;

   •   determined the correct allocation—to the individual residential service programs within
       the local DSN boards—from each region’s share of the Department’s central office
       administrative and general costs included in the waiver program;

   •   determined, for each residential service program at each of the local DSN boards in all
       four regions, the room-and-board portion of allocated Department central office

                                                3
       administrative and general costs by applying the room-and-board ratio to the allocated
       costs;

   •   excluded from our calculations of unallowable costs, any costs related to respite care,
       personal caregivers, or meals associated with adult day health services that the
       Department separately identifies on the waiver cost report or supporting schedules;

   •   reviewed the CMS-64 reports to verify that the waiver program’s payments for claims
       and payments related to cost settlement were included on the CMS-64 report and
       therefore claimed by the State agency for Federal reimbursement; and

   •   determined the Federal share of unallowable costs by calculating and applying the
       applicable FMAP on a weighted-average basis for each of the SFYs in our audit period.

We conducted our review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency claimed Medicaid reimbursement of $6,730,749 ($4,832,975 Federal share) for
unallowable room-and-board costs under the waiver program that the Department operated. The
unallowable costs included:

   •   $5,176,347 ($3,726,112 Federal share) of administrative and general costs related to
       room and board and

   •   $1,554,402 ($1,106,863 Federal share) of direct room-and-board costs.

The State agency claimed unallowable room-and-board costs because neither the State agency
nor the Department had adequate controls to (1) ensure that the Department followed applicable
Federal law and guidance or its own guidance or (2) detect errors or misstatements on the local
DSN boards’ cost reports.

FEDERAL LAW AND GUIDANCE

Social Security Act

Section 1915(c)(1) of the Act allows for payment of the cost of home or community-based
services (other than room and board) that are provided under a written plan of care to individuals
in need of the services. Costs that are not related to the provision of this care, as well as room-
and-board costs, are not allowable under such a waiver. However, section 1915(c)(1) does allow
payment for the cost of rent and food for an unrelated personal caregiver who is residing in the
same household with an individual who, but for the assistance of such caregiver, would require

                                                 4
admission to a hospital, nursing facility, or Intermediate Care Facility for Individuals with
Intellectual Disabilities.

Federal Regulations

Federal regulations (42 CFR § 441.310(a)(2)) state that Federal financial participation for home
and community-based services is not available for the cost of room and board except when (1)
provided as part of respite care services in a facility approved by the State that is not a private
residence; (2) a portion of rent and food is attributable to an unrelated personal caregiver who
resides in the same household with a waiver recipient; or (3) meals are provided as part of a
program of adult day health services as long as the meals do not constitute a full nutritional
regimen.

State Medicaid Manual

The State Medicaid Manual (CMS Pub. No. 45), in defining services in section 4442.3 B.12,
states that room includes “related administrative services.” A Department document entitled
Calculation of Room and Board for Non-ICF/MR Programs, which was directed to all local
DSN boards and contractors who provide residential services, referenced that section of the State
Medicaid Manual to provide instructions for removal of room costs from allowable costs.

ROOM-AND-BOARD ADMINISTRATIVE AND GENERAL COSTS

The State agency claimed Medicaid reimbursement totaling $5,176,347 ($3,726,112 Federal
share) for unallowable administrative and general costs related to room and board under the
waiver program that the Department operated. The unallowable costs included:

   •   $4,222,499 ($3,040,850 Federal share) of administrative and general costs related to
       room and board from the local DSN boards and

   •   $953,848 ($685,262 Federal share) of administrative and general costs related to room
       and board from the Department’s central office.

Local Disabilities and Special Needs Boards

The State agency claimed Medicaid reimbursement totaling $4,222,499 ($3,040,850 Federal
share) for unallowable administrative and general costs related to room and board that the local
DSN boards had allocated to residential service programs. Of the $32,928,192 in administrative
and general costs that the local DSN boards allocated to the residential service programs,
$4,222,499, or 12.82 percent, was related to room and board and therefore not allowable for
reimbursement. (See Appendix A.)

The local DSN boards properly removed most of the unallowable direct room-and-board costs
from allowable costs but failed to consider that there were also unallowable indirect costs
associated with the direct room-and-board costs. To determine the unallowable indirect costs,
we identified the percentage of room-and-board direct costs to total direct costs for the

                                                 5
residential service programs and applied that percentage to the administrative and general costs
allocated to the residential service programs. Specifically, for each local DSN board residential
service program, we divided the total direct room-and-board costs by the total direct costs and
multiplied the quotient by the administrative and general costs that the local DSN board allocated
to the residential service program.

The Department Central Office

The State agency claimed Medicaid reimbursement totaling $953,848 ($685,262 Federal share)
for unallowable Department central office administrative and general costs related to room and
board. Of the $7,801,175 in Department central office administrative and general costs related to
the waiver program’s residential service programs, $953,848, or 12.23 percent, was related to
room and board and therefore not allowable for reimbursement. (See Appendix A.)

The Department allocated central office administrative and general costs to the regional offices.
It did not further allocate any of these costs to the local DSN boards’ residential service
programs. Therefore, to calculate the amount related to room and board, we first determined the
portion of each region’s share of central office costs related to the individual local DSN boards
and to the residential service boards within those boards.

Then, we identified the percentage of room-and-board direct costs to total direct costs for the
residential service programs and applied that percentage to the central office administrative and
general costs allocated to the residential service programs. Specifically, for each local DSN
board residential service program, we divided the total direct room-and-board costs by the total
direct costs and multiplied the quotient by the local DSN board residential service program’s
share of central office administrative and general costs.

DIRECT ROOM-AND-BOARD COSTS

The State agency claimed Medicaid reimbursement totaling $1,554,402 ($1,106,863 Federal
share) for unallowable direct room-and-board costs that were incurred at the local DSN board
level.

Some local DSN boards included maintenance costs related to residential service programs (a
direct room-and-board cost) in a pool of costs to be allocated to the various residential locations
rather than directly assigning those costs to the specific locations. Generally, the local DSN
boards properly made adjustments to remove these costs from the cost report. However, there
were 18 local DSN boards that, for at least 1 year of our audit period, did not remove the
allocated maintenance costs. As a result, the Department improperly claimed for reimbursement
$1,554,402 ($1,106,863 Federal share) for direct room-and-board costs. (See Appendix B.)

INADEQUATE CONTROLS

The State agency claimed unallowable room-and-board costs because neither the State agency
nor the Department had adequate controls to (1) ensure that the Department followed applicable
Federal law and guidance or its own guidance or (2) detect errors or misstatements on the local
DSN boards’ cost reports.
                                                 6
The Department did not properly follow Federal regulations and guidance including the State
Medicaid Manual (CMS Pub. No. 45). Additionally, the Department did not prescribe a uniform
format for the local DSN boards to follow when preparing the cost reports. Rather, each local
board prepared its cost reports in its own format, making it difficult to identify, for example,
when direct room-and-board costs were included in a pool of costs to be allocated by a local
DSN board. While the Department properly removed most of the direct room-and-board costs,
neither the State agency’s nor the Department’s controls were sufficient to prevent a significant
amount of room-and-board costs from being claimed for reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal government $4,832,975 representing the Federal share of the room-
       and-board costs that the Department improperly claimed on its waiver cost reports,

   •   instruct the Department to follow Federal law and its own guidance and remove room-
       and-board related administrative and general costs from future waiver program cost
       reports,

   •   instruct the Department to develop a uniform cost reporting process and require each
       local board to follow this process,

   •   instruct the Department to strengthen its cost report review procedures to ensure that it
       will detect errors or misstatements on the local DSN boards’ cost reports, and

   •   strengthen its own procedures for reviewing the waiver cost reports submitted by the
       Department.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with all of our
recommendations and said that it would work with CMS to negotiate repayment of $4,832,975,
representing the Federal share of improperly claimed room-and-board costs. The State agency’s
comments are included in their entirety as Appendix C.




                                                7
APPENDIXES
                                                                                                                 Page 1 of 2

                                        APPENDIX A: INDIRECT ROOM-
                                       AND-BOARD EXPENSES CLAIMED
                                      FOR REIMBURSEMENT FOR FISCAL
                                          YEARS 2007, 2008, AND 2009

                        FY* 2007               FY 2008               FY 2009                TOTAL ALL YEARS
                      Local    Central      Local    Central      Local    Central       Local    Central     Total
     Local Board      Board    Office       Board    Office       Board    Office        Board    Office    Indirect
Aiken                $14,282    $6,356     $36,584    $9,217     $49,768   $11,498     $100,634   $27,071   $127,705
Allendale-Barnwell    27,058       5,469    39,979       5,526    33,233       5,166    100,270    16,161     116,431
Anderson              31,990    13,273      27,859       8,754    31,636       9,814     91,485    31,841     123,326
Babcock              174,071    30,461     133,252    29,882     114,187    23,478      421,510    83,821     505,331
Bamberg               39,141       4,027    32,431       3,521    35,232       3,876    106,804    11,424     118,228
Beaufort              33,323       6,326    20,493       4,008    20,899       4,276     74,715    14,610      89,325
Berkeley              39,726    14,638      39,766    13,241      35,744       9,636    115,236    37,515     152,751
Burton                57,249    22,627      49,363    11,534      45,483    11,096      152,095    45,257     197,352
Calhoun               36,081       4,079    33,408       3,570    22,912       2,909     92,401    10,558     102,959
Charles Lea          126,047    28,648     138,750    21,406     113,601    23,943      378,398    73,997     452,395
Charleston            52,124    17,914      51,789    17,923     163,621    19,165      267,534    55,002     322,536
Cherokee              26,563       4,015    24,130       2,810    23,093       2,754     73,786     9,579      83,365
Chesco                50,645    17,482      62,521    19,552      46,489    20,240      159,655    57,274     216,929
Chester-Lancaster     20,841       3,323    22,607       3,692    17,604       3,022     61,052    10,037      71,089
Clarendon             47,549       9,047    32,746       7,409    49,472       8,506    129,767    24,962     154,729
Colleton              14,611       2,209     8,664       1,591    15,664       2,328     38,939     6,128      45,067
Darlington            11,530       2,380    18,609       3,979    16,827       3,981     46,966    10,340      57,306
Dorchester             9,260       5,554    10,857       6,261     9,751       7,343     29,868    19,158      49,026
Fairfield             27,440       5,108    26,859       5,534    32,174       5,088     86,473    15,730     102,203
Florence              36,848       9,753    32,979       9,512    36,376    10,229      106,203    29,494     135,697
Georgetown             3,968        560     31,460       4,132    51,349       6,188     86,777    10,880      97,657
Greenville            39,576    19,536      25,164    13,888      48,003    14,710      112,743    48,134     160,877
Hampton               14,479       1,137    15,718       1,158    16,845       1,453     47,042     3,748      50,790
                                                                                                                                            Page 2 of 2


                                FY* 2007                      FY 2008                     FY 2009                    TOTAL ALL YEARS
                              Local     Central          Local     Central          Local      Central          Local    Central       Total
       Local Board            Board      Office         Board      Office           Board      Office           Board     Office     Indirect
Horry                        14,412        2,919        43,603          8,691      27,558           7,321      85,573      18,931        104,504
Jasper                       11,212        1,442        14,874          1,815      14,253           1,906      40,339       5,163         45,502
Kershaw                      14,006        2,660        17,544          2,760      18,217           2,876      49,767       8,296         58,063
Laurens                      34,623       12,441        23,833          9,235      23,007           8,197      81,463      29,873        111,336
Lee                          26,604        4,889        29,159          4,970      25,981           4,659      81,744      14,518         96,262
Marion-Dillon                22,839        6,223        31,177          6,545      29,843           6,956      83,859      19,724        103,583
Marlboro                       9,999         939        20,785          1,769       9,931           1,202      40,715       3,910         44,625
Newberry                     28,136        3,713        28,996          4,892      28,984           4,582      86,116      13,187         99,303
Oconee                       46,527       10,509        41,418      10,780         31,108       10,428        119,053      31,717        150,770
Orangeburg                   39,434       15,023        39,747      13,316         70,226       13,246        149,407      41,585        190,992
Pickens                      37,723        8,564        38,927          7,560      43,231           8,054     119,881      24,178        144,059
Richland-Lexington (1)          -            -            -              -            -              -           -           -              -
Sumter                       35,836       11,053        57,922      12,482         13,740           8,565     107,498      32,100        139,598
Union                        17,651        4,322        19,495          4,256      18,460           3,582      55,606      12,160         67,766
Williamsburg                   7,228       1,446         9,478          1,615       7,863           1,527      24,569       4,588         29,157
York                         79,067       15,200        69,183      13,094         68,306       12,903        216,556      41,197        257,753
Total                    $1,359,699    $335,265    $1,402,129     $311,880      $1,460,671    $306,703      $4,222,499   $953,848   $5,176,347
Federal Share % (2)          69.49%      69.49%        69.73%       69.73%         76.56%       76.56%
Federal Share              $944,855    $232,976      $977,705     $217,474      $1,118,290    $234,812      $3,040,850   $685,262   $3,726,112



(1) Richland-Lexington had no direct room-and-board costs and therefore we calculated no indirect room-and-board costs.

(2) The Federal share percentage is a weighted average for the State fiscal year. The Federal share percentage for fiscal year 2009 is
significantly higher because of enhanced funding under provisions of the American Reinvestment and Recovery Act.

* FY = Fiscal Year
                  APPENDIX B: DIRECT ROOM-AND-BOARD EXPENSES
                          CLAIMED FOR REIMBURSEMENT
                       FOR FISCAL YEARS 2007, 2008, AND 2009

           Local Board (1)        FY* 2007        FY 2008        FY 2009           TOTAL
           Allendale-Barnwell      $90,114              $0            $0             $90,114

           Anderson                 19,531          21,318         30,579              71,428

           Babcock                  12,879            -            64,153              77,032

           Berkeley                108,726         105,673           -                214,399

           Chesco                   75,233          87,215        108,492             270,940

           Chester-Lancaster        19,162          19,281         20,018              58,461

           Dorchester                 6,245          6,943          7,219              20,407

           Fairfield                25,552          27,267         31,928              84,747

           Florence                 79,770            -              -                 79,770

           Kershaw                  12,072          14,021         17,434              43,527

           Laurens                  25,106          30,828           -                 55,934

           Marion-Dillon            24,933          27,487         25,142              77,562

           Marlboro                   -               -             4,258               4,258

           Newberry                   5,141         49,377           -                 54,518

           Oconee                   27,429          47,203           -                 74,632

           Pickens                  42,620          41,559           -                 84,179

           Sumter                   24,929          25,897         51,458             102,284

           York                     90,210            -              -                 90,210

           Total                  $689,652        $504,069       $360,681          $1,554,402
           Federal Share % (2)     69.49%          69.73%         76.56%

           Federal Share          $479,239        $351,487       $276,137         $1,106,863


(1) There are 39 local disabilities and special needs boards in the State. However, we have listed only
those that claimed direct room-and-board costs during our audit period.

(2) The Federal share percentage is a weighted average for the State fiscal year. The Federal share
percentage for fiscal year 2009 is significantly higher because of enhanced funding under provisions of
the American Reinvestment and Recovery Act.

* FY = Fiscal Year
                                                                                           Page 1 of 2

                       APPENDIX C: STATE AGENCY COMMENTS



                                                                                        Anthony E. Keck, Director
                                                                                        Nikki R. Haley, Governor




                                                July 11, 2012

Ms. Lori S. Pilcher
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, Georgia 30303

Re: Report Number A-04-11-04012

Dear Ms. Pilcher:

The South Carolina Department of Health and Human Services (SCDHHS) and the South Carolina
Department of Disabilities and Special Needs (SCDDSN) have reviewed the U.S. Department of Health
and Human Services (USDHHS), Office of Inspector General (OIG) draft audit report entitled South
Carolina Claimed Some Unallowable Room and Board Costs Under the Intellectual and Developmental
Disability Waiver and appreciates the opportunity to comment on the draft findings and
recommendations. Our responses are included below:
Finding #1: Refund to the Federal Government $4,832,975 representing the federal share of the room
and board costs that the Department improperly claimed on its waiver cost reports.
Response: The SCDHHS will work with the Centers for Medicare and Medicaid Services (CMS) to
negotiate repayment.
Finding #2: The Department (i.e. SCDDSN) should be instructed to follow federal law and its own
guidance and remove room and board related administration and general costs from future waiver
program cost reports.
Response: The SCDHHS and SCDDSN will ensure that the local DDSN Board and SCDDSN Central Office
administrative and general costs are allocated to direct room and board costs beginning with the July 1,
2012 through June 30, 2013 reporting period via the step-down cost allocation process in accordance
with federal regulations.
Finding #3: The Department (i.e. SCDDSN) should develop a uniform cost reporting process and require
each local board to follow this process.
Response: The SCDHHS will approve the SCDDSN uniform cost reporting process beginning July 1, 2012
to include the prescribed uniform cost report instructions, detailed cost reporting format, and any
future policy guidance as it pertains to the reporting of allowable Medicaid reimbursable costs for
waiver cost report purposes.
Finding #4: The Department (i.e. SCDDSN) should strengthen its cost report review procedures to
ensure that it will detect errors or misstatements on the local boards’ cost reports.


                                             Office of the Director
                              P. O. Box 8206 Columbia South Carolina 29202-8206
                                      (803) 898-2504 Fax (803) 255-8235
                                                                                          Page 2 of 2

Ms. Lori S. Pilcher
Page 2
July 11, 2012

Response: The SCDDSN will continue to strengthen its cost report review process to detect errors or
misstatements on the local boards’ cost reports.

Ms. Lori S. Pilcher
Page 2
July 11, 2012

Finding #5: The State Agency (i.e. SCDHHS) should strengthen its cost report review procedures used to
review the waiver cost reports submitted by the Department.
Response: The SCDHHS will continue to strengthen its cost report desk review process to ensure that
costs claimed for Medicaid reimbursement are in compliance with federal regulations.

Thank you for the opportunity to respond to the OIG draft audit report. Should you or your staff should
have any questions, please contact Mr. Jeff Saxon at (803) 898-1023.




                                                       Sincerely,



                                                       Anthony E. Keck
                                                       Director
